                       U.S. Environmental Protection Agency                                                    09-P-0185
                                                                                                            June 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s Great Lakes National
General contracted with           Program Office
Williams, Adley & Company,
LLP, to conduct the annual         What Williams, Adley & Company, LLP, Found
audit of the U.S.
Environmental Protection          Vulnerability testing conducted in May 2009 of EPA’s Great Lakes National
Agency’s (EPA’s) compliance       Program Office network identified Internet Protocol addresses with several
with the Federal Information      high-risk vulnerabilities associated with one device. The Great Lakes National
Security Management Act           Program Office took immediate action during field work to remediate the
(FISMA). Williams, Adley &        vulnerability. Williams, Adley & Company, LLP, conducted a subsequent
Company, LLP, conducted the       network scan to confirm that the remedial action resolved the vulnerability.
network vulnerability testing     Therefore, we are closing this audit report upon issuance in our audit tracking
of the Agency’s local area        system.
network located at EPA’s
Great Lakes National Program
Office in Chicago, Illinois.      Due to the sensitive nature of the report’s technical findings, the full report is not
                                  available to the public.

Background

The network vulnerability
testing was conducted to
identify any network risk
vulnerabilities and present the
results to the appropriate
EPA officials to promptly
remediate or document
planned actions to resolve the
vulnerability.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
